CERTIFICATE OF SERVICE
NO. 20-1420
Roadie, Inc.
Petitioner,
v.
Baggage Airline Guest Services, Inc.
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
BAGGAGE AIRLINE GUEST SERVICES, INC. BRIEF IN OPPOSITION, by mailing three (3) true and correct
copies of the same by Fedex 2-Day, prepaid for delivery to the following address.
Edward A. Pennington
Smith Gambrell & Russell, LLP
1055 Thomas Jefferson Street NW
Suite 400
Washington, DC 20005
(202) 263-4300
epennington@sgrlaw.com
Counsel for Roadie, Inc.

Lucas DeDeus

May 5, 2021
SCP Tracking: Stein-401 E. Jackson Street-Cover Orange

